Certificate of Service
3/10/2020
Herewith are 40 of the paperbooks
No.
TN THE

Supreme Court of the United States
THE ESTATE OF THOMAS STEINBECK, GAIL
KNIGHT STEINBECK, AND THE PALLADIN GROUP,
INC., PETITIONERS,
v.
WAVERLY SCOTT KAFFAGA, AS EXECUTOR OF THE
ESTATE OF ELAINE ANDERSON STEINBECK

PETITION FOR A WRIT OF CERTIORARI

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner indicated
below. Service by first-class mail addressed as follows:
Susan J. Kohlmann
Joiner & Block LLP
AttornRy for Respondent

919 Third Avenue
Now York, NY 10022
(212) 891.1690
*-1koithruannenner.com

Ro CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

RECEIVED
MAR 16 2020

